-7729
fn

Supreme Court of tfje ®ntteb States
CASEY ROSE - PETITIONER,
V.

UNITED STATES OF AMERICA - RESPONDENTS,
On Petition For Writ Of Certiorari
To The United States Court of Appeals For The
Fifth Circuit

....1 >fl 1 fu «p

i I

iiyyai^u

PETITION FOR WRIT OF CERTIORARI

FILED
MAR 3 0 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

Casey Rose
Reg. No. 48743-177
U.S.P. - Tucson
P.O. Box 24550
Tucson, AZ 85734
Appearing Pro Se,

RECEIVED
APR - 6 2021

1

QUESTION PRESENTED
Whether the^termination of cross-examination
of a cooperating^with incentives to lie prior to being
able to impeach the witness violated the confrontation
clause? If so, can reasonable jurists debate the issues? ;
Whether allowing a documented schizophrenia
defendant to represent himself at trial, and facing a
life sentence, violated due process of law by not having
a competency hearing in light of Indiana v. Edwards.
171 L. Ed. 2d 345 U.S. 164 (2008)? If so, can
reasonable jurists debate this issue?

11

PARTIES TO THE PROCEEDINGS

All parties appear in the caption of the case on
the cover page.

Ill

TABLE OF CONTENTS
QUESTION PRESENTED
PARTIES TO THE PROCEEDINGS
TABLE OF CONTENTS
TABLE OF AUTHORITIES

1
11
111
1V-V

PETITION FOR WRIT OF CERTIORARI

1

OPINIONS BELOW

2

STATEMENT OF JURISDICTION

3

CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED

4

STATEMENT OF THE CASE
REASON FOR GRANTING THE PETITION
CONCLUSION

5-7

8-14
15

IV

TABLE OF AUTHORITIES
CASES
Davis v. Alaska, 415 U.S. 308, 318, 94 S. Ct.
1105, 39 L. Ed. 2d 347 (1974)_____________

8 Jo

Delaware v. Arsdall, 475 U.S. 673, 679, 106
S. Ct. 1431, 89 L. Ed. 2d 674 (1986)_______

%10

Duskey v. United States, 362 U.S. 402, 402
(1960)(Per Curiam)____________________

13

Godinez v. Moran, 509 U.S. 389, 396 (19931

/a

Indiana v. Edwards, 171 L. Ed 2d 345
554 U.S. 164 (2008)________________
United States v. Pass etal., Case No.
3:14-CR-367-B (2014, Dallas Division1

£

United States v. Ross, 684 F. App’x
403 (5th Cir. 2017)_______ „______
STATUTES
18 U.S.C.§ 4241(a)_____
18 U.S.C.§ 922(g)(1)____
18 U.S.C.§ 924(a)(2)____
21 U.S.C.§ 841(a)(1)____
21 U.S.C.§ 841(b)(l)(A)__
21U.S.C.§ 841(b)(1)(C) '
21 U.S.C.§ 846______ __
21 U.S.C.§ 851_________
28 U.S.C.§1254(1)______

S

3.13

1
H

H.
M
H

H

M

a

V

UNITED STATES CONSTITUTIONAL AMENDMENTS
U.S. Const. Amend. V___________ _______________________
U.S. Const. Amend VI__________________________________
RULES
Supreme Court Rule 10l
Supreme Court Rule 29.
OTHER
Randy Borum & Thomas Grisso, Established Standards
For Criminal Forensic reports, An Empirical Analysis,
24 Bull, Am. Acad. Psychiatric & L. 297 (1996}________

3
3

8
11

EL

1
IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a Writ of
Certiorari issue review the judgement below.

OPINIONS BELOW
The opinion of the United States Court of
Appeals appears at Appendix A to the petition, and is
unpublished.
; The opinion of the United States District Court
appears at Appendix B to the petition, and is
unpublished.

2
STATEMENT OF JURISDICTION
The date on which the United States Court of
Appeals decided the petitioner's case was August 11,
2020. See Appendix A.

The Court of Appeals denied a timely position
petition for rehearing on the following date:
November 2, 2020, and a copy of the order denying
rehearing appears in Appendix C.

The Jurisdiction of this Court is invoked under
28 U.S.C. § 1254(1).

3
CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED
U.S. Const. Amend. V ( Due Process Clause):
"No person shall be deprived of life, liberty, or
property, without due process of law[.]"

U.S. Const. Amend VI (Confrontation Clause):
"In all criminal prosecutions to be confronted
with the witness against him[.]

U.S. Const. Amend VI (Assistance of Counsel
Clause): "In all criminal prosecutions, the
accused shall enjoy the right to have the
assistance of counsel for his defense [.]

18.U.S.C. § 4241(a) "a district court must sua
sponte conduct a competency hearing if: there
is reasonable cause to believe that the
defendant may presently be suffering from a
mental disease or defect, rendering him
mentally incompetent to the extent that he is
unable to understand the nature of and
consequences of the proceedings against him
or to assist properly in his defense."

4

STATEMENT OF THE CASE
Attorney D. Robin McCarty initially represented
Mr. Rose. (Cr No. 93) Following Mr. McCarty's
withdraw, the Court appointed attorney Scott Miller
Anderson to represent Mr. Rose. (Cr No. 615) Mr.
Rose,
dissatisfied
with
Mr.
Anderson's
representation, asked the Court for new counsel, but
the Court denied his request. (Cr No. 1095, 1102) Mr.
Rose proceeded to trial Pro Se with Mr. Anderson as
stand by counsel. (Cr No. 1160) After trial, the Court
then appointed attorney David Pire to serve as
standby counsel for sentencing. (Cr No. 1178) Mr.
Rose then sought full representation, and the Court
responded by appointing attorney Joseph Padian,
who represented Mr. Rose at sentencing and on
direct appeal. (Cr No. 1185)
On September 17, 2015, a Jury convicted Mr.
Rose of conspiracy to possess with intent to
distribute a controlled substance in violation of 21
U.S.C.
§§ 846, 841 (a)(1) & (b)(1)(A), and 851,
possession of a controlled substance with intent to
distribute in violation of 21 U.S.C. §§ 841 (a)(1) &
(b)(1)(c), and possession of a firearm by a felon, in
violation of 18 U.S.C. § § 922 (g)(1) and 924 (a)(2).
(Cr No. 1169)
On May 5, 2016, the Court sentenced Mr. Rose
to life imprisonment.

5
Footnote [1]
Citations to "Cr No. - "refer to the docket of the
underlying criminal proceeding, United States v.
Pass etal.. Case No 3:14-Cr-367-B. Documents filed
in section § 2255 action are cited as "Cv No.
The
title references other documents.
(Cr No. 2320) Mr. Rose filed a direct appeal,
and the Fifth Circuit affirmed his conviction and
sentence on April 4, 2017. The United States v. Rose,
684 F. App' x 403 (5th Cir 2017) Mr. Rose timely filed
a section § 2255 motion on March 19, 2018. (Cr. No
3350) In his § 2255 motion, he asserted:
1.) The Court denied his rights under the
confrontation clause.
2.) Appellant counsel was ineffective for failing
to raise the confrontation clause issue on
appeal.
3.) The government committed misconduct by
not correcting perjured testimony of one of its
witnesses.
4.) [E]ach of his trial court attorneys was
ineffective for failing to request a mental
health competency examination.
5.) Sentencing counsel was ineffective for
failing to raise the point that not only was Mr.
Rose was heavily medicated during pre-trial,

6
trial, and sentencing; he had a history of
extreme mental health problems.
6.) The Court violated his due process rights
by allowing Mr. Rose to proceed to trial prose
depression,
from
suffering
while
schizophrenia. Under the influence of heavy
psychiatric medication during pre-trial, trial,
and sentencing, his "competency was not
addressed." (Cv No. 1 at 14-22)
The United States filed a response in
opposition (Cv No. 7), to which Mr. Rose filed a reply.
(Cv No. 10)
On March 19, 2019, a United States
Magistrate Judge filed a report and recommendation
("R & R") that Mr. Roses § 2255 motion be denied,
and his case be, "dismissed without prejudice." (Cv
No. 11) Mr. Rose filed timely objections to the
magistrate Judge's "R & R". (Cv. No. 15) On June 7,
2019, the Court accepted the Magistrate Judge's
conclusion over Mr. Rose's objections and denied Mr.
Rose a Certificate Of Appealability. (Cv No. 16) On
June 7, 2019, a judgment was issued. (Cv. No 17)
On July 30, 2019, Mr. Rose filed a timely
notice of appeal (Cv. No 18) and a motion to proceed
on appeal in forma pauperis. (Cv No. 19) On August
2, 2019, the Court granted Mr. Rose's motion. (Cv
No. 20) Mr. Rose filed a Motion for Issuance of a
Certificate Of Appealability ("C.O.A.") in the Fifth
Circuit. (Fifth Circuit Appeal No. 19-10882) That

7
Court, on August 11, 2020, denied a C.O.A. to Mr.
Rose. (Id), but that petition was denied on November
2, 2020 (Id).
This timely petition for Writ of Certiorari
followed.

8
ARGUMENT
As stated in Rule 10 of the Supreme Court
rules, [rjeview on Writ of Certiorari is not a matter of
right, but of judicial discretion. A petition for Writ of
Certiorari will be granted only for compelling
reasons." This Court's most cited case involving the
Confrontation Clause was decided almost 50 years
ago. See Davis v. Alaska. 415 U.S. 308, 318, 94 S Ct.
1105, 39 L. Ed 2d 347 (1974). This Court's recent
decision regarding self-representation with a
documented schizophrenic illness was decided 12
years ago. See Indiana v. Edwards 171 L. Ed 2d 345,
554, U.S. 164 (2008)
In all criminal prosecutions, the accused shall
enjoy the right to be confronted with the witness
against them. This is the cornerstone of the sixth
amendment. This Court has made clear the
Confrontation Clause is not satisfied until sufficient
cross-examination has been granted.
No person shall be deprived of life, liberty, or
property without due process of law. A competency
evaluation for a defendant who has decided to go to
trial, waived representation of counsel, faces a life
sentence, and is diagnosed with a schizophrenic
illness, and is heavily medicated is the cornerstone of
the due process foundation.
Granting Certiorari, in this case, will provide
valuable protection to the defendant's fifth and sixth
amendment to the constitution, and will provide

9
valuable guidance to the lower courts on when due
process requires a competency evaluation, and when
the confrontation clause has been satisfied.
The United States Court of Appeals has so far
departed from the accepted and usual course of
judicial proceedings to call for an exercise of this
Court's supervisory power.
I. The lower Court's broad interpretations of
Delaware v. Arsdall. 475 U.S. 673, 679, 106 S
Ct. 1431, 89 L. Ed 2d 674 (1986), has allowed
the court's to violate the Confrontation Clause
and terminate the cross-examination before
the baseline of the sixth amendment is
satisfied.
Mr. Rose asked witness crow if he "beat up his
girlfriends," the Court terminated Mr. Rose's
cross-examination of witness crow (Gov. Res Doc 7 9)
and cited to Delaware v. Arsdall: 475 U.S. 673, 679,
106, S Ct. 1431, 89 L. Ed 2d 674 4986) ("[T]rial
judges retain wide latitude insofar as the
Confrontation Clause is concerned to impose
reasonable limits on such cross-examination based
on concerns about, among other things, harassment,
prejudice, confession of the issue, the witnesses
safety, or interrogation that is repetitive or only
marginally relevant")
(Doc .11 at 5) Mr. Rose asks the Court not only
to recognize this limitation, but to draw a baseline at
"impeachment of the witness," before the sixth

10
amendment is satisfied. This Court has recognized
that restrictions on the scope of cross-examination
can violate. See Davis v. Alaska. 415 U.S. 308, 318,
94 S. Ct 1105, 39 L. Ed 2d 347 (1974). The Supreme
Court in Davis makes it clear that the concern with
such restriction is that they might undermine the
purpose of the cross-examination by denying the
DEFENSE COUNSEL the opportunity to "delve into
the witness's story to test the witnesses perception
and memory and also to impeach, i.e., discredit the
witness." Id at 316. The Supreme Court has
established a test for a violation of the Confrontation
Clause, which Mr. Rose’s case is an ideal vehicle for
this Court to reiterate. [If] "a reasonable jury might
have received a significantly different impression of
the witnesses CREDIBILITY had the DEFENSE
COUNSEL had been permitted to pursue his
proposed line of cross-examination than the
Confrontation Clause has been violated. See
Delaware v. Arsdall 475, U.S. 673, 679, 106 S. Ct
1431 (1986) (emphasis added three times)

Mr. Rose asked witness Crow if he "beat up his
girlfriends," and the Court terminated his
cross-examination of witness Crow. This question
was relevant to the case, and would serve four
purposes. Specifically, 1.) To impeach witness Crow
and show that he was a liar, 2.) show the jury why
witness Crow accused Mr. Rose of breaking into his
apartment to steal a kilo of meth. The question was

11
meant to draw out a lie. Witness Crow "beat up his
girlfriend," Nia Reed was responsible for breaking
into the apartment and stealing the kilo. She and her
other boyfriend broke into the witness Crow's
apartment, and Crow assaulted her as a result of
this. This claim could've been proven by John Hall's
interrogation video, to which the United States had
been truthful and granted John Hall a 5K.1
departure. John Hall said, "Mr. Crow knew that Nia
Reed and her other boyfriend broke into his
apartment because he whipped her ass. Nia Reed,
John Hall, and Brandon Crow ("witness Crow") are
on the same conspiracy indictment. 3.) To show a
timeline that would establish Mr. Rose had not seen
witness Crow since May 2014, and that the firearm
transaction could not have taken place in June or
July of 2014 as witness Crow said, and 4.) the
cross-examination would’ve allowed Mr. Rose to
simply ask how he and witness Crow communicated.
Mr. Rose's cell phone records were admitted as
evidence, but nowhere in his records were witness
Crow's phone numbers. If we can witness Crow was a
supplier to Mr. Rose, then how did the two
communicate? They didn't, and this too would've
shown witness Crow was a liar. In short, The Court
terminated the cross-examination of witness Crow
before he could be impeached, illustrating the
baseline for the Confrontation Clause.
Mr. Rose is serving a life sentence for a kilo of
("ghost dope") that witness Crow, a ("cooperating

12
witness"), said was stolen from his apartment. This
case is an ideal vehicle to reiterate that the
Confrontation Clause is not satisfied until the
witness has been impeached when dealing with a
cooperating witness with incentives to lie.

II. Allowing Mr. Rose to represent himself at
trial without a competency hearing when
diagnosed with schizophrenia, depression
while heavily medicated on psychiatric
medication violated his due process in light of
Indiana v. Edwards. 171 L Ed 2d 345, U.S.
164 (2008).

The Due Process Clause of the fifth
amendment states that "no person shall be deprived
of life, liberty, or property, without due process of
law." U.S. constitution amendment V. This Court has
identified a defendant who is mentally incompetent
cannot conduct a trial suffering from schizophrenia.
Indiana V Edwards. 171 L. Ed. 2d 345, US 164
(2008)
"A criminal defendant may not be tried unless
he is competent, and he may not waive his right to
counsel or plead guilty unless he does so
"competently and intelligently." Godinez v. Moron.
509 U.S. 389, 396 (1993)(citation omitted). "A
defendant is competent to stand trial when he has

13
"sufficiently presents the ability to consult with his
or her lawyer with a reasonable degree of rational
understanding" and has "a rational as well as factual
understanding of the proceedings." Dusky v. United
States. 362 U.S. 402 (1960)(per curiam). The same
standard applies when determining whether the
defendant is competent to waive his right to counsel.
Godinez, 509 U.S. at 396-98; Indiana v. Edwards.
554 U.S. 164 172-73 (2008)

Under 18 U.S.C § 4241(a), a district court
must sua sponte conduct a competency hearing if:
There is a REASONABLE CAUSE to
believe the defendant may presently be
suffering from a mental disease or defect
rendering him mentally incompetent to the
extent that he is unable to understand the
nature and consequences of the proceedings
against him or to assist properly in his own
defense (emphasis added)

Mr. Rose’s schizophrenia and depression are
well documented in his presentence report. Crim. doc
1877-1 932 18 U.S.C § 4241(a) states, "a District
Court court must sua sponte conduct a competency
hearing if there is REASONABLE CAUSE to
believe...." (emphasis three times). What is
reasonable cause? Mr. Rose avers That [any]

14
defendant suffering from a serious mental disease
such as schizophrenia ("like Mr. Rose"), the district
court should sua sponte conduct a competency
hearing because there is a REASONABLE CAUSE to
believe that the defendant may be presently
suffering from a mental disease or defect.
(Emphasize added) This is not written on a blank
slate. See Randv Borum & Thomas Grisso.
Established Standards For Criminal Forensic
Reports: An Empirical Analysis. 24 Bull. Am. Acad.
Psychiatric & L. 297 (1996)("we are well aware that a
person suffering from schizophrenia, ("like Mr. Rose
"), may have certain periods of lucidity and thus
appear perfectly normal at one moment while
suffering
from
delusions
of
paranoia
or
hallucinations at another. Indeed, it is the
im [precise] and [im] perfect nature of the science
known as psychiatry that makes a review of the past
available psychiatric records an essential part of a
defendant's competency hearing to stand trial." Thus,
REASONABLE CAUSE to conduct a competency
hearing should be readily met with the defendant
suffering from schizophrenia.
Mr. Rose asked the Court to conduct a
"G.V.R." in his case in light of Indiana v. Edwards.
171 L. Ed 2d 345, 554 U.S. 164 (2008)(Finding
defendant who has schizophrenia "like Mr. Rose"
unable to represent himself because he was mentally
incompetent to conduct the trial. Mr. Rose's due
process rights were in violation when "reasonable

15
cause" to believe he had a mental disease was readily
met with a diagnosed mental health disorder,
schizophrenia. A competency hearing was not held
for Mr. Rose before proceeding to trial, facing a life
sentence, being diagnosed with schizophrenia, and
representing himself because he believed the council
was working with the United States. The case
Court to decide
provides a vehicle for the
"reasonable cause " for defendants like Mr. Rose.

16
CONCLUSION
For all the reasons stated above, Mr. Rose
asks the Court to grant his petition for Writ of
Certiorari. Granting Certiorari will allow this Court
to protect others' constitutional rights and correct a
grave constitutional error.

JfL/^2/21
Respectfully submitted,

Casey
(S).
/

.No. 48743-177
U.S.P. -Tucson
P.O. Box 24550
Tucson, Az 85734
Appearing Pro Se

